HHS/OIG, Audit -"Audit of the Medicaid Drug Rebate Program in the State of Georgia,"(A-04-03-06010)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Medicaid Drug Rebate Program in the State of Georgia," (A-04-03-06010)
August 29, 2003
Complete
Text of Report is available in PDF format (2.34 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether the Georgia Department of Community Health had established adequate
accountability and internal controls over the Medicaid drug rebate program.  The audit covered Medicaid drug rebates
through June 30, 2002.  The review identified weaknesses in the States management of the Medicaid drug rebate program.  We
recommended that the State more closely monitor contractor activities, accurately report drug rebate activities, and follow
the Centers for Medicare and Medicaid Services's (CMS) guidelines in the collection process.  We also recommended
that the amount of any rebate write-offs related to the transition to a new contractor be determined and disposition made
in accordance with proper accounting principles and within CMSs guidelines.